28410             Federal Register / Vol. 62, No. 100 / Friday, May 23, 1997 / Proposed Rules

ESD, is required at the Site. Further,         Dated: May 15, 1997.                       OIG–33–NOI. Comments received
EPA has concluded that the 1996 ROD’s        W. Michael McCabe,                           timely will be available for public
‘‘No Further Action’’ alternative’s use of   Regional Administrator, USEPA Region III.    inspections as they are received,
engineering and institutional controls at    [FR Doc. 97–13481 Filed 5–22–97; 8:45 am]    generally beginning approximately 2
the Site will not interfere with the         BILLING CODE 6560–50–P
                                                                                          weeks after publication of a document,
redevelopment and expansion                                                               in Room 5550 of the Office of Inspector
objectives set forth in the October 1990                                                  General at 330 Independence Avenue,
Master Plan Harrisburg International                                                      S.W., Washington, D.C., on Monday
                                             DEPARTMENT OF HEALTH AND
Airport commissioned by PennDOT’s                                                         through Friday of each week from 8:00
                                             HUMAN SERVICES
Bureau of Aviation’s State-owned                                                          a.m. to 4:30 p.m., (202) 619–0335.
Airports Division.                           Office of Inspector General                    The meetings will be held at the
   On August 21, 1996, EPA and PADEP                                                      Holiday Inn Capitol, 550 C Street, SW.,
conducted a final inspection of the          42 CFR Part 1001                             Washington, DC 20024.
sentinel well construction. No                                                            FOR FURTHER INFORMATION CONTACT:
deficiencies were noted nor were             RIN 0991–AA91
                                                                                          Joel Schaer, (202) 619–0089, OIG
additional activities deemed necessary                                                    Regulations Officer; Judy Ballard, (202)
                                             Health Care Programs, Fraud and
as a result of the inspection.                                                            690-7419, Convener.
   All remedial actions for this Site are    Abuse; Intent To Form the Negotiated
complete. Collection of monitoring well      Rulemaking Committee for the Shared          SUPPLEMENTARY INFORMATION:
data from the HIA production wells and       Risk Exception
                                                                                          I. Negotiated Rulemaking Act
the North Base Landfill sentinel wells,      AGENCY:  Office of Inspector General
initially on a quarterly basis (unless and                                                  The Negotiated Rulemaking Act,
                                             (OIG), HHS.
until modified by PADEP), is the only                                                     Public Law 101–648 (5 U.S.C. 561–569),
                                             ACTION: Intent to form negotiated            establishes a framework for the conduct
O&M requirement necessary.                   rulemaking committee and notice of
   PADEP has assumed the                                                                  of negotiated rulemaking and
                                             meetings.                                    encourages agencies to use negotiated
responsibility for assuring compliance
with the institutional controls identified   SUMMARY:   We have been statutorily­         rulemaking to enhance the informal
in the RODs for this Site, and the review    mandated under section 216 of the            rulemaking process. Under the Act, the
of data generated as part of the 5-year      Health Insurance Portability and             head of an agency must consider
review process. On April 16, 1997,           Accountability Act (HIPAA) of 1996, to       whether—
PADEP and PennDOT entered into a             establish a negotiated rulemaking              • There is a need for a rule;
Memorandum of Understanding (MOU).                                                          • There are a limited number of
                                             committee in accordance with the
The MOU expresses the intent of                                                           identifiable interests that will be
                                             Negotiated Rulemaking Act and the
PADEP and PennDOT that PennDOT                                                            significantly affected by the rule;
                                             Federal Advisory Committee Act
will, inter alia, perform the sampling of                                                   • There is a reasonable likelihood
                                             (FACA). The committee’s purpose
the wells, water and sediment and                                                         that a committee can be convened with
                                             would be to negotiate the development
implement institutional controls, as                                                      a balanced representation of person who
                                             of the interim final rule addressing the
required by remedy selected in the 1996                                                   (1) Can adequately represent the
                                             shared risk exception, in section 216 of
ROD.                                                                                      interests identified, and (2) are willing
                                             HIPAA, to the Federal health care
   The statutorily required five-year                                                     to negotiate in good faith to reach a
                                             programs’ anti-kickback provisions. The
review of the ground water treatment                                                      consensus on the rulemaking;
                                             committee will consist of
remedy selected in the 1987 ROD was                                                         • There is reasonable likelihood that
                                             representatives of interests that are
completed on September 1996. Further                                                      a committee will reach a consensus on
                                             likely to be significantly affected by the
five year reviews will be conducted                                                       the rulemaking within a fixed period of
                                             interim rule. The committee will be
pursuant to OSWER Directive 9355.7–                                                       time;
                                             assisted by an impartial facilitator. We
02. ‘‘Structure and Components of Five-                                                     • The negotiated rulemaking process
                                             are requesting public comments on
Year Reviews,’’ and/or other applicable                                                   will not unreasonably delay the
                                             whether we have properly identified
guidance. The next scheduled five year                                                    development and issuance of a final
                                             interests that will be affected by key
review is set for September, 1998.                                                        rule;
                                             issues discussed below.                        • The agency has adequate resources
Subsequent five year reviews will be
conducted pursuant to the directive.         DATES: Comments will be considered if        and is willing to commit such resources,
   The remedies selected for this Site       we receive them at the address provided      including technical assistance, to the
have been implemented in accordance          below by no later than 5 p.m. on June        committee; and
with the three Records of Decision as        9, 1997.                                       • The agency, to the maximum extent
modified and expanded in the EPA­               The meetings will be held at 9:00 a.m.    possible consistent with the legal
approved Remedial Designs for the            on June 17–18, 1997, and July 28–30,         obligations of the agency, will use the
Operable Units and the 1992 ESD.             1997.                                        consensus of the committee with respect
Human health threats and potential           ADDRESSES: Please mail or deliver your       to developing the rule proposed by the
environmental impacts have been              written comments (1 original and 3           agency for notice and comment.
reduced to acceptable levels. EPA and        copies) to the following address: Office       Negotiations are conducted by a
the PADEP find that the remedies             of Inspector General, Department of          committee chartered under the FACA (5
implemented continue to provide              Health and Human Services, Attention:        U.S.C. App. 2). The committee includes
adequate protection of human health          OIG–33–NOI, Room 5246, Cohen                 an agency representative and is assisted
and the environment.                         Building, 330 Independence Avenue,           by an impartial facilitator. The goal of
   EPA, with the concurrence of PADEP,       SW., Washington, DC 20201.                   the committee is to reach consensus on
believes that the criteria for deletion of      Because of staffing and resource          the language or issues involved in a
this Site have been met. Therefore, EPA      limitations, we cannot accept comments       rule. If consensus is reached, it is used
is proposing deletion of this Site from      by facsimile (FAX) transmission. In          as the basis of the interim final rule. The
the NPL.                                     commenting, please refer to file code        process does not affect otherwise
                   Federal Register / Vol. 62, No. 100 / Friday, May 23, 1997 / Proposed Rules                                  28411

procedural requirements of the FACA,          if a written agreement places the                  We expect discussion on whether this
the Administrative Procedure Act and          individual or entity at ‘‘substantial           includes entities such as drug
other statutes.                               financial risk’’ for the cost or utilization    companies or device manufacturers
                                              of the items or services provided.              providing combinations of items and
II. Subject and Scope of the Rule
                                              Section 216 requires the Department, in         services, and when this constitutes
A. Need for the Rule                          consultation with the Department of             ‘‘bundling’’ that would be harmful to
  Section 216 of HIPAA (Public Law            Justice, to engage in a negotiated              the Federal health care programs
104–191) mandates a negotiated                rulemaking process to establish                 without further protections. We also
rulemaking process for establishing           standards related to this exception for         expect to address whether the services
standards for a statutory exception to        risk-sharing arrangements. The factors          must be health care services or could be
the anti-kickback statute.                    to be considered are (1) The level of risk      other services, such as marketing
                                              appropriate to the size and type of             services.
B. Subject and Scope of the Rule              arrangement; (2) the frequency of                  • What constitutes ‘‘substantial
   The Federal health care programs’          assessment and distribution of                  financial risk for the cost of utilization
anti-kickback statute, set forth in section   incentives; (3) the level of capital            of items or service’’?
1128B(b) of the Social Security Act (the      contribution; and (4) the extent to which          The legislative history of the
Act), provides criminal penalties for         the risk-sharing arrangement provides           exception lists certain factors (such as
individuals or entities that knowingly        incentives to control the cost and              the level of capital contribution) to be
and willfully offer, pay, solicit or          quality of health care services.                taken into account in determining
receive bribes, kickbacks or other                                                            whether the risk is substantial. We
                                              C. Issues and Questions To Be Resolved          expect discussion on how these factors
remuneration in order to induce
business reimbursed by Medicare or               We anticipate some discussions about         should be taken into account, what
other Federal health care programs. In        the basic approach to the rule, including       constitutes risk (for example, should
addition, for violations of section           what policy issues are properly                 bonuses and withholds be treated the
1128B(b), the Department has the              considered in determining whether               same), and whether special treatment
authority to exclude a person or entity       arrangements should be excepted from            should be given to encourage providers
from participation in the Medicare or         the anti-kickback provisions, whether           to assume risk where they do not
State health care programs, in                flexibility or certainty in the rule is         ordinarily do so or where risk is
accordance with section 1128(b)(7) of         more important, and whether the                 difficult to measure. In addition, we
the Act.                                      definitions of terms used in the                anticipate discussion about how to take
   Because the statutory language of the      exception must be consistent with use           into account the total risk-sharing
anti-kickback statute is quite broad,         of those terms in other contexts. In            arrangement between the parties.
there was concern that many innocuous         addition, we anticipate discussion on a
                                              limited number of specific issues.              Issues Outside the Scope of the Rule
or even beneficial arrangements would
                                                                                                 With regard to parameters outside the
be covered by the statute. As a result,       Specific Issues for Discussion                  scope of the rule, the OIG does not plan
section 14 of Public Law 100–93, the             The negotiated rulemaking will               to negotiate the following issues—
Medicare and Medicaid Patient and             address the following specific issues.             • Whether any existing regulatory
Program Protection Act of 1987,                  • How is the term ‘‘written                  exceptions to the anti-kickback
authorized the promulgation of                agreement’’ to be defined?                      provisions (safe harbors) should be
regulations ‘‘specifying payment                 We expect discussion on whether the          amended, or proposed safe harbors
practices that shall not be treated as a      agreement should be of minimum                  enacted;
criminal offense under section 1128B(b)       duration, what the agreement should                • Whether any other new safe harbors
of the Social Security Act and shall not      contain and whether unwritten side              should be enacted; or
serve as the basis for an exclusion under     agreements should be prohibited.                   • How the OIG should implement a
section 1128(b)(7) of such Act.’’ These          • What does the term ‘‘eligible              requirement that it issue advisory
have come to be known as the ‘‘safe           organization under section 1876 of the          opinions.
harbor’’ regulations. To date, we have        Social Security Act’’ mean?                        In addition, the OIG will not agree to
promulgated two final rules that have            We expect discussion on whether this         adopt any practices or concepts that do
established 13 specific areas for ‘‘safe      phrase is limited to Medicare risk              not contain adequate controls on
harbor’’ protection under the anti­           contractors (and to arrangements for            potential abuse or manipulation.
kickback statute (July 21, 1991 (56 FR        services provided under Medicare                   We invite public comment on issues
35952) and January 25, 1996 (61 FR            contracts) or has a broader meaning. In         not identified.
2122)).                                       addition, we expect discussions on
   Section 216 of HIPAA specifically          whether the first part of the exception         III. Affected Interests and Potential
amends section 128B(b)(3)(F) of the Act       applies to remuneration only if it is in        Participants
to include a new statutory exception for      accordance with an agreement where an              The convener has proposed, and we
risk-sharing arrangements. The                ‘‘eligible organization’’ is a party, or also   have agreed to accept, the following
provision establishes a new statutory         if in accordance with ‘‘lower level’’           organizations as negotiation
exception from liability under the anti­      agreements, such as one between a               participants. We believe these
kickback statute for remuneration             physician and a physician group                 organizations represent an appropriate
between an eligible organization under        practice that has an agreement with a           mix of interests and backgrounds
section 1876 of the Act and an                health maintenance organization. There          affected.
individual or entity providing items or       may also be some discussion of the term         American Association of Health Plans
services, or any combination thereof, in      ‘‘organization’’ as used in the second          American Association of Retired
accordance with a written agreement           part of the exception.                             Persons
between these parties. The provision             • What is an ‘‘individual or entity          American Health Care Association
also allows remuneration between an           providing items or services or a                American Hospital Association
organization and an individual or entity      combination thereof’’?                          American Medical Association
28412             Federal Register / Vol. 62, No. 100 / Friday, May 23, 1997 / Proposed Rules

American Medical Group Association             The first meeting is schedule for June    C. Requests for Representation
Blue Cross Blue Shield Association           17–18, 1997 at the Holiday Inn Capitol,       If, in response to this notice, an
Consumer Coalition on Quality in             550 C Street, S.W., Washington, D.C.        additional individual or representative
   Health Care                               20024. The first day’s meeting will         of an interest requests membership or
Coordinated Care Coalition                   begin at 9:00 a.m. The purpose of this      representation in the negotiating group,
Department of Justice                        meeting will be discuss in detail how
Federation of American Health Systems                                                    we will determine, in consultation with
                                             the negotiations will proceed and how       the convener, whether that individual or
Health Industry Manufacturers                the committee will function. The
   Association                                                                           representative should be added to the
                                             committee will—                             group. We will make that decision based
Heath Insurance Association of America
National Association of Community              • Agree to ground rules for committee     on whether the individual or interest—
   Health Centers                            operation;                                    • Would be significantly affected by
Independent Insurance Agents of                • Hear presentations on the anti­         the rule; and
   America/National Association of           kickback statute and related provisions,      • Is already adequately represented in
   Health Underwriters                       as well as what risk-sharing                the negotiating group.
National Association of Medicaid Fraud       arrangements are being developed;           D. Establishing the Committee
   Control Units                               • Determine how best to address the         After reviewing any comments on this
National Association of State Medicaid       principal issues; and
   Directors                                                                             notice and any requests for
                                               • If time permits, begin to address       representation, we will take the final
Nation Rural Health Association
                                             those issues.                               steps to form the committee.
Pharmaceutical Research and
   Manufacturers Association                   A second meeting is scheduled for         VI. Negotiation Procedures
The IPA Association of America               July 28–30, 1997 at the Holiday Inn
                                             Capitol, 550 C Street, S.W., Washington,       When the committee is formed, the
   The interests identified included law                                                 following procedures and guidelines
enforcement agencies, health programs,       D.C. 20024, beginning at 9:00 a.m. We
                                             expect that by this meeting the             will apply, unless they are modified as
health plans, provider organizations,                                                    a result of comments received on this
health care professionals and                committee can complete action on any
                                             procedural matters outstanding from the     notice or during the negotiating process.
consumers. In determining whether the
potential effect of the rule on provider     organizational meeting, and either begin    A. Facilitator
and professional groups which sought to      or continue to address the issues.
                                                                                           We will use an impartial facilitator.
participate is ‘‘significant,’’ we             Subsequent meetings of the                The facilitator will not be involved with
considered the extent to which—              committee would be held approximately       the substantive development or
   • Items or services provided by group     one month apart, in the Washington,         enforcement of the regulation. The
members are covered by the relevant          D.C. area.                                  facilitator’s role is to—
programs;                                    V. Formation of the Negotiating               • Chair negotiating sessions;
   • Group members are entering into                                                       • Help the negotiation process run
                                             Committee
risk-sharing arrangements;                                                               smoothly; and
   • The anti-kickback provisions have       A. Procedure for Establishing an              • Help participants define and reach
been applied to prosecute or prohibit        Advisory Committee                          consensus.
arrangements which group members
have used or considered using (either          As a general rule, an agency of the       B. Good Faith Negotiations
where one party is an ‘‘eligible             Federal Government is required to             Participants must be willing to
organization’’ or where risk-sharing may     comply with the requirements of FACA        negotiate in good faith and be
be involved); and                            when it establishes or uses a group that    authorized to do so. We believe this
   • The group actively lobbied for the      includes nonfederal members as a            must be accomplished by selection of
exception or commented on related            source of advice. Under FACA, an            senior officials as participants. We
provisions. We also sought to reflect        advisory committee is established once      believe senior officials are best suited to
differences in the type of risk that might   the charter has been approved by the        represent the interests and viewpoint of
be assumed and in the ways individuals       Secretary. We will not begin                their organizations. This applies to the
or entities organize to provide items or     negotiations until the charter is           OIG as well, and we are designating D.
services.                                    approved.                                   McCarty Thornton, Chief Counsel to the
   The intent in establishing the            B. Participants                             Inspector General, to represent the OIG.
negotiating committee is that all
interests are represented, not necessarily     The number of participants in the         C. Administrative Support
all parties. We believe this proposed list   group should not exceed 25. A number          We will supply logistical,
of participants represents all interests     larger than this could make it difficult    administrative and management
associated with the rule to be               to conduct effective negotations. One       support. If deemed necessary and
negotiated. We invite comment on this        purpose of this notice to help determine    appropriate, we will provide technical
list of negotiation participants.            whether the interim final rule would        support to the committee in gathering
                                             significantly affect interests not          and analyzing additional data or
IV. Schedule for the Negotiation             adequately represented by the proposed      information.
  We have set a deadline of 6 months         participants. We do not believe that
beginning with the date of the first         each potentially affected organization or   D. Meetings
meeting for the committee to complete        individual must necessarily have its          Meetings will be held at the Holiday
work on developing the interim final         own representative. However, each           Inn Capitol, 550 C Street, S.W.,
rule. We intend to terminate the             interest must be adequately represented.    Washington, D.C. 20024 at the
activities of the committee if it does not   Moreover, we must be satisfied that the     convenience of the committee. We are
appear likely to reach consensus within      group as a whole reflects a proper          announcing the first two meetings
this time period.                            balance and mix of interests.               through this notice, and will announce
                    Federal Register / Vol. 62, No. 100 / Friday, May 23, 1997 / Proposed Rules                              28413

committee meetings and agendas                     Proposed rule; extension of
                                             ACTION:                                       DEPARTMENT OF COMMERCE
through further notices in the Federal       comment due date.
Register. Unless announced otherwise,                                                      National Oceanic and Atmospheric
meetings are open to the public.             SUMMARY:    By decision served May 5,         Administration
                                             1997, the Surface Transportation Board
E. Committee Procedures                                                                    50 CFR Parts 227 and 425
                                             issued a notice of proposed rulemaking
  Under the general guidance and             (NPR) proposing, inter alia, a total
direction of the facilitator, and subject    exemption from regulation for 29              DEPARTMENT OF THE INTERIOR
to any applicable legal requirements, the    nonferrous recyclable commodities. The        Fish and Wildlife Service
members will establish the detailed          NPR was not published in the Federal
procedures for committee meetings that       Register until May 16, 1997 (62 FR            50 CFR Parts 17 and 425
they consider most appropriate.              27003) although parties in an earlier
F. Defining Consensus                        proceeding (Ex Parte No. 346 (Sub-No.         Endangered and Threatened Species;
                                             36)) were served with a copy of the May       Reopening of Comment Period on
  The goal of the negotiating process is     5, 1997 NPR. The May 16 Federal               Proposed Threatened Status for a
consensus. Under the Negotiated              Register publication provided for the         Distinct Population Segment of
Rulemaking Act, consensus means that         filing of a notice of intent to participate   Anadromous Atlantic Salmon (Salmo
each interest concurs in the result,         on May 26, 1997, with comments due            salar) in Seven Rivers
unless the term is defined otherwise by      June 30, 1997, and reply comments due
the committee. We expect the                                                               AGENCIES:  National Marine Fisheries
                                             July 15, 1997. The Association of             Service, National Oceanic and
participants to fashion their working        American Railroads (AAR), in a request
definition of this term.                                                                   Atmospheric Administration,
                                             dated May 8, 1997, and supplemented           Commerce; and Fish and Wildlife
G. Failure of Advisory Committee To          on May 14, 1997, has requested an             Service, Interior.
Reach Consensus                              extension of time to July 15, 1997, to file
                                                                                           ACTION: Reopening of public comment
                                             comments and to August 5, 1997, to file
  If the committee is unable to reach                                                      period.
                                             reply comments. AAR requests the
consensus, the OIG will proceed to           extension to allow it and its members         SUMMARY:    The State of Maine formally
develop an interim final rule. Parties to    sufficient time to compile current            submitted the Maine Atlantic Salmon
the negotiation may withdraw at any          information and to consult and                Conservation Plan (Plan) to the National
time. If this happens, the remaining         coordinate a response among                   Marine Fisheries Service and the U.S.
committee members and the OIG will           themselves and shippers of nonferrous         Fish and Wildlife Service (collectively
evaluate whether the committee should        recyclable commodities. AAR contacted         the Services) on March 5, 1997, in
continue.                                    three parties who had filed opposition        response to the Services’ proposal to list
H. Record of Meetings                        comments in the earlier proceeding and        Atlantic salmon in seven Maine rivers
                                             reports that two of those parties do not      as threatened (60 FR 50530, September
  In accordance with FACA’s
                                             object to the extension, and the third        29, 1995). The Services have determined
requirements, minutes of all committee
                                             took no position. The extension request       that the Plan is significant new
meetings will be kept. The minutes will
                                             will be granted. Moreover, because the        information relating to the proposed
be placed in the public rulemaking
                                             due date of May 26, 1997 for notice of        rule that merits review and
record.
                                             intent is a federal holiday, that due date    consideration under the Endangered
I. Other Information                         will be extended to May 27, 1997.             Species Act (ESA). The Services also
  In accordance with the provisions of       DATES:  Persons interested in                 note that information and data collected
Executive Order 12866, this notice was       participating in this proceeding as a         since the publication of the proposed
reviewed by the Office of Management         party of record by filing and receiving       rule is also available for review and has
and Budget.                                  written comments must file a notice of        become part of the record for the
                                             intent to participate by May 27, 1997.        Services’ evaluation of the proposed
  Dated: April 11, 1997.
                                             Comments must be submitted by July            listing. This information includes adult
June Gibbs Brown,                                                                          returns, redd counts, fry stocking,
                                             15, 1997, and reply comments are due
Inspector General.                                                                         habitat assessments, commercial fishing
                                             August 5, 1997.
  Approved: May 19, 1997.                                                                  agreements and management measures,
Donna E. Shalala,                            ADDRESSES:   Send an original plus 10         and marine habitat assessment.
                                             copies of notices of intent to participate    Stocking, return and habitat data are
Secretary.
                                             and pleadings referring to STB Ex Parte       provided in the Annual Report of the
[FR Doc. 97–13718 Filed 5–21–97; 10:02 am]
                                             No. 561 to: Surface Transportation            U.S. Atlantic Salmon Assessment
BILLING CODE 4150–04–M
                                             Board, Office of the Secretary, Case          Committee which is prepared annually
                                             Control Unit, 1925 K Street, N.W.,            for the U.S. Section to North Atlantic
                                             Washington, DC 20423–0001.                    Salmon Conservation Organization. The
DEPARTMENT OF TRANSPORTATION                                                               annual field activity report prepared by
                                             FOR FURTHER INFORMATION CONTACT:
Surface Transportation Board                 Beryl Gordon, (202) 565–1600. (TDD for        the Maine Atlantic Salmon Authority
                                             the hearing impaired: (202) 565–1695.)        and the U.S. Fish and Wildlife Service
49 CFR Part 1039                                                                           also documents management activities
                                               Decided: May 19, 1997.                      for the seven river populations. In order
[STB Ex Parte No. 561]                         By the Board, Vernon A. Williams,           to ensure that the public has an
                                             Secretary.                                    opportunity to comment on all phases of
Rail General Exemption Authority—            Vernon A. Williams,
Nonferrous Recyclables                                                                     this proposed listing, the Services are
                                             Secretary.                                    making the Plan available for review at
AGENCY:   Surface Transportation Board,      [FR Doc. 97–13631 Filed 5–22–97; 8:45 am]     selected locations throughout New
DOT.                                         BILLING CODE 4915–00–P                        England and the Washington DC area
